6

No.

Rf
Supreme Court, U.S,
FILED

DEC 2 8 2020
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

QUENTIN WATSON -PETITIONER

vs.
DARRELL VANNOY, WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

QUENTIN WATSON
GENERAL DELIVERY
LOUISIANA STATE PENITENTIARY
ANGOLA. LA. 70712

QUESTION(S) PRESENTED
Whether the United States District Court, Eastern District of Louisiana and Fifth Circuit Court
of Appeals mis-applied clearly established law in evaluating petitioner's claims?

LIST OF PARTIES

[ ] All patties appears in (he caption of the case on the cover page.
[X ] All patties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose jiuigm ent is the subject of this petition
as follows:

District Attorney
Parish of Washington
905 Peal Street
Frankliutou. La 70438
Louisiana Attorney General
1885 N. 3rd St
P. 0. Bos 94005
Baton Rouge, La 70804

TAftl
F AF AANTFNT<J
lMl^-yLLcUJXJL&a.iff

i

OPINIONS BELOW.
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED,

J

STATEMENT OF THE CASE.

,4

REASONS FOR GRANTING THE WRIT

5
17

CONCLUSION.

INDEX TO APPENDICES

APPENDIX A - DENIAL OF COA FROM FIFTH CIRCUIT COURT OF APPEAL - DATED:

TABLE OF AUTHORITIES CITED

CASES
Michigan v. Mosley, 423 U.S. 96,
Miranda v. Arizona, 384 U.S. 436
Rock v. Arkansas, 483 U.S. 44,
Smith v. Robbins, 528 U.S. 259
State v. Danzart, 99-3471 (La 10/30/00), 769 So. 2d 1206
State v. Hampton, 00-0052 (La 3/2202), 818 So 2d 720
Strickland v. Washington, 466 U.S. 668,

STATUTES AND RULES
28 U.S.C. § 1254(1)
28 U.SX\§ 1275(a)
OTHER(S)
Fifth Amendment
Sixth Am endm ent.
Fourteenth Amendment

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

The Petitioner, Quentin Watson, respectfully prays that a writ of certiorari issue to review the
judgment of the Fifth Circuit Court ofAppeals.
OPINIONS BELOW
[X J For cases from federal courts:
The opinion of the United States Fifth Circuit Court ofAppeals appears at Appendix A to the
petition and is
[ ] reported at.
;or.
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B
and is
[ ] reported at.
; on
[ ] has been designated for publication but is not yet. reported; or,
[X] is unpublished
[ x ] For cases from stale courts:
The opinion of the highest state court to review the merits appears at
Appendix_€__ to the petition and is
[ X ] report ed at
;or.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished

I

to the

petition

JURISDICTION
[ X J For cases from federal courts:
The dale on which the United States Court ofAppeals decided my case
was
October 9.2020
[ X ] No petition for rehearing was timely filed in my case.
Q A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:__________
„ and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for % writ of certiorari was granted
to and including _
(date) ou
(date)
in Application No.
The jurisdiction of this Court, is invoked under 28 U.S.C. § 1254(1).
[ ] For cases from state courts:
The date on which the biggest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
_________________ , mid a copy of the order denying rehearing
appears at Appendix
[ ] An extension of tone to file the petition for writ of certiorari was granted
to and including
(date) ou
(date) in
Application No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1275(a).

2

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
Fifth Amendment to United States Constitution; “No person shallhe deprived of life, liberty?
or property, except by due process of law...”
Sixth Amendnent to United States Constitution: “In all criminal prosecutions, the accused shall
enjoy the right... to have compulsoty process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.”
Fourteenth Amendment., Section 1, to United States Constitution: “nor shall any state deprive
any person of life, or property without due process of law.”

3

STATEMENT OF THE CASE
A. STATE COURT PROCEEDINGS
FACTUALBACKGRQUND AND PROCEDURAL POSTURE
The petitioner was charged by % grand jury indictment with two counts of first degree murder.
On November 23,2009, the petitioner appeared at arraignment represented by Attorney William Alford
and entered a plea of not guilty.
On June 20, 2011, the Court heard motions as to suppression of statement. The Court held the
hearing open and deferred ruling on the motion to suppress until July 1,2011. On that date, the defense
offered the testimony of Mr. Watson, and the matter was submitted to the court for ruling. The Court
ruled denying petitioner's motion to suppress the statement.
One week prior to July 8,2011, the defense filed anotice of mental retardation. The Court ruled
that testimony by Dr. Zimmerman concerning petitioner's mental retardation would be admissible at.
trial. The State then requested that petitioner be evaluated as to his competency to proceed. The Court
granted the State's request and ordered that the doctors evaluate petitioner. The Court further ordered
the doctors to perform IQ testing on petitioner.
On July 29, 2011, the parties stipulated as to the doctors report on petitioner. Subsequent
thereto, the Court, found petitioner incompetent to proceed and ordered that he be remanded to the
Feliciana Forensics Facility for competency restoration. On December 7, 2012, the Court held a
competency hearing. After hearing evidence and argument from the parties, the Court found that
petitioner was competent to proceed.
A jury trial began on July 15, 2013. On July 18, 2013, the jury returned a verdict of guilty as
charged as to both counts charged in the bill of indictment.. On July 24, 2013, the trial court denied
petitioner's post-trial motions and sentenced as to both counts to life imprisonment at hard labor in the
Department of Corrections, without benefit of parole, probation, probation or suspension of sentence.
4

to tun concurrently. Petitioner timely moved for appeal, which the trial court granted.
The First Circuit Court of Appeal issued a ruling on 9/19/14, No. 2014 KA 0350 State v.
Watson affirming defendant's conviction and sentence.
Petitioner then filed for review to the Louisiana Supreme Court who denied review on Jane 19,
2015. State v. Watson, 172 So. 3d 649.
Petitioner submitted his Uniform Application for Post Conviction Relief on or about August 17,
2016.
Judge William Knight delivered the judgment of the lower court, denying Petitioner's
Application in it's entirety on April 18, 2017.. The First Circuit denied writs on July 24, 2017. The
Louisiana. Supreme Court followed suit, on October 8,2018.

B. FEDERAL COURT PROCEEDINGS
On October 29, 2018, petitioner filed a writ of habeas corpus petition in the United States
District Court, Eastern District ofLouisiana.
Hie Magistrate judge recommended that, petitioner’s habeas corpus petition be dismissed
Petitioner thereafter filed an objection to the Magistrate report and recommendation. On June 26,2019,
the district court judge issued an order adopting the magistrate judge recommendation to dismiss the
petition. On July 2019, petitioner filed anotice of appeal and request for COA, which the district, court
denied Petit ioner thereafter filed a request for COA in the Fifth Circuit. Court, of Appeal. ( No: 1930541V On October 9,2020, the Fifth Circuit Court ofAppeal denied relief.
REASONS FOR GRANTING THE PETITION
In its order denying COA, the Fifth Circuit, erred in denying petitioner the opportunity to
present his claims for review. Petitioner presents the below claims in support, that this Honorable Court
should grant, certiorari.
5

ISSUES PRESENTED FOR REVIEW
CLAIM NO. 1
As the trial court erred in denying the motion to suppress inculpatory statements,
the court should have granted the m otion for new trial
CLAIM NO. 2
Ineffective Assistance of Counsel
Mr. Watson was deprived of his constitutional right to effective assistance of counsel when
his trial attorney failed to preserve lus right to appeal the trial court’s denial of his motion
to suppress statement.
Petitioner was denied his fundamental right to testify on his own behalf at triad.
LAW AND ARGUMENT

As the trial court erred in denying the motion to suppress inculpatory statements,
the court should have granted the motion for new trial
Quentin Watson was convicted of two counts of first degree murder. The trial court allowed the
state to use statement obtained after Mr. Watson invoked his Fifth Amendment right to remain silent
Without this statement, the state is left with only die circumstantial evidence of DNA on the shell
casing found at die scene. As such, the trial court committed reversible error in allowing the state to use
a statement obtained in violation of Me Watson's constitutional rights.
Before a confession can be introduced into evidence, the state must affirmatively prove that it
was free and voluntary and not made under die influence of fear, duress, intimidation, menaces, throats,
inducements or promises. The state must also establish that an accused who makes a statement during
custodial interrogation was first advised of his Miranda rights. Miranda v. Arizona* 384 U.S. 436,86
S.Ct. 1602,16 L.Ed 2d 694 (1966).
6

At a hearing on amotion to suppress a confession, the state bears the burden of proving beyond
a reasonable doubt the free and voluntary nature of the confession. The exercise of the right to silence
by an accused does not. act. as a. complete bar to all further questioning. However, the police must
“scrupulously honor” the right to cut off questioning by the person in custody. Michigan k Mosley, 423
U.S. 96, 96 S.Q. 321, 46 L.EcL 2d 313 (1975). The question of whether an accused rights are
“scrupulously honored5 is a. factual issue which depends upon the totality of the circumstances
involved under the particular facts of each case. Hie factor to be considered are who initiates the
further questioning; the time delay between the original request and subsequent interrogation; whether
Miranda, warnings were given before each separate interrogation; whether waiver of rights farms were
signed; and whether pressures were asserted on the accused by police between the time he invoked his
rights and subsequent interrogation.
Mr. Watson is a twenty-nine year old man who grew up attending special education classes. On
July 29, 2011, he was found incompetent to proceed by the court after having been evaluated by two
court appointed psychiatrists. (R.P. 16) Mr. Watson was sent to Feliciana Forensics and was not found
to be restored to competency until December 7,2012.
After being arrested, Mr. Watson repeatedly denied any involvement in these murders. Even
after he invoked his right to remain silent by telling officers he no longer wanted to talk, he was
subjected to continued exhortations by the officers that he admit, his involvement as they already had
enough to prove their case. Hie officers in this case did not “scrupulously honor” Mr. Watson's right to
cut off questioning when he informed them he no longer wished to talk. They instead continued to
berate Mr. Watson about how he is going to prison so he should just confess.
Finally, Mr. Watson broke down in tears and told them what they wanted to hear. He
regurgitates many of the facts which they had already given him in their interrogation. However, this
tearful statement is taken after he invokes his right to remain silent; therefore, it. was obtained in
7

violation of his constitutional right against self-incrimination.
As the statement was unconstitutionally acquired, it was not tree or voluntary and should not
have been admissible at Mr. Watson's trial. For these reasons, the state court's rulings were contrary to
clearly established law set forth by the United States Supreme Court.

CLAIM WO. 2
Ineffecti ve Assistance of Counsel
A. Mr. Watson was deprived of tils constitutional right to effective assistance of counsel
when his trial attorney failed to preserve his right to appeal the tried court's denial of his
motion to suppress statement.
B. Petitioner was denied his fundamental right to testify on his own behalf at trial.
^Slf^^^llfjtHIHIl****************************

I.

A criminal defendant is entitled to effective assistance of counsel under the Sixth

Amendment to the United States Constitution and Article I, § 13 of the Louisiana Constitution.
State v. Johnson, 08-1156 (La App. 5 Cir. 4/28/09), 9 So. 3d 1084, 1092, writ denied, 09-1394 (La
2/26/10), 28 So. 3d 268. When a defendant seeks reversal of a conviction based upon allegations of
ineffective assistance of counsel, he must satisfy both prongs of the two-part test set forth in Strickland
v. Washington, 466 U S. 668,687,104 S. Ct. 2052, 2064,80 L.Ed. 2d 674 (1984).
First, a defendant must show feat counsel “committed errors so serious that he or she was not
funtioning as the 'counsel' guaranteed a defendant the Sixth Amendment” Second, a defendant, must.
show that counsel's deficient performance prejudiced the outcome of the proceedings and was “so
serious as to deprive the defendant of a fair trial” Strickland, supra. In order to show prejudice on an
ineffective assistance of counsel claim, a defendant must demonstrate that, but for counsel's deficient
performance, the outcome of the proceedings would have been different. Therefore, in this case,
8

defendant must show that, had counsel reserved his right to appeal the suppression ruling, there is a
reasonable probability that, he would have prevailed on appeal. See also. Smith v. RaMnns^ 528 U.S.
259,285=86,120 S. CL 746,145 LJEd 2d 756 (2000).

A.

Petitioner’s trial attorneys were ineffective for falling to timely raise the Issue of his
invocation of his right to silence at some tome prior to trial. Consequently, petitioner was
prohibited from raising that issue on appeal.
During the officer's coercive questioning of petitioner and prior to the making of any
confession, petitioner invoked his right to remain silent by telling officers be no longer wanted to talk.
Petitioner's invocation was ignored and the officers pressed on until petitioner finally cracked under
pressure and simply told the officers what they wanted to hear. Hie only motion to supress statements
by petitioner's attorneys was a boilerplate motion filed at the outset of these proceediqgs, which stated
as follows:
“Defendant moves to suppress for use as evidence all oral or written
inculpatory statements obtained from defendant by all law enforcement
officers or other agents of the State in the above-captioned and numbered
cause.
Ail of said confessions and other inculpatory statements are inadmissible
in evidence because they were not made by defendant to said law
enforcement officers or anyone else freely and voluntaiy, but were made
under the influence of fear, duress, intimidation, menaces, threats,
inducements, and promises, and/or without mover having been advised of
his constitutional rights to remain silent, right to counsel, ect"

Clearly, the defense attorney's motion to suppress does not make any reference to petitioner's
invocation of his right to remain silent as grounds far suppression of petitioner's inculpatory statement
Nor did the defense attorneys make argument and/or introduce evidence at the June/July 2011 hearing
on the motion to suppress that would support the allegation that petitioner invoked his right to silence
prior to making a statement Rather, at. the 2011 suppression hearing, defense counsel argued that
9

petitioner's purported waiver of his constitutional rights could not have been “knowing” and
“intelligent” because he was ignorant as to what those rights even were. The Court denied petitioners
motion to suppress and reasoned as follows:
‘The Court has reviewed the testimony presented in connection with the
original portion of this hearing, which was held on June 20,2011, in court.
The Court reviewed die actual taped video recording of the statement
which was made to Franklinton Police Department and Master Trooper
Richard Newman during the course of that interview.
The Court notes that that Mr. Watson was property advised of his
constitutional rights relative to the making of that statement. The Court
notes from the responses on the recording that Mr. Watson, truthfully or
falsely, indicated that he understood those rights. He forther understood
his right to make a statement or not to mike a statement, and lie voluntary
answered the questions presented by the police, and then a rather lengthy
statement ensues, approximately mi hour and 45 minutes, if memoiy
serves me correctly.
Hie Court notes that at no time dining the course of the statement were
there any threats of violence made. No one coerced or intimated him in
any way during the course of the Statement. Therefore, from a
constitutional perfective, the statement, as obtained by the officers in
question, is not subject to suppression and the Motion to Suppress will be
denied.
Hie Court notes that the focus of today's defense has been to attempt to
establish that Mr. Watson did not, at the time of making die statement,
understand his constitutional rights; did not have the capacity to
intelligently and knowingly waive those rights.
While the Court certainty understands the thrust of the defense, the Court
does not find that that has been established to die satisfaction of die Court.
Therefore, the Motion to Suppress is denied in its entirely.”
Two years later, on the day of trial - July 16, 2013 - following vior dire and just prior to
opening statements, defense counsel Jerry Fontenot-who was not Mr. Watson's counsel at arraignment
or at the motion to suppress hearing-addressed the Court as follows:
“[TJhere's a spot on the tape prior to the main inculpatory statement where
the defendant specifically said that he didn't want to talk anymore, and he
said it two or three times, put his head down and would not talk for a
10

white. Hey continued to question him, and ultimately led to a
statement...
Based upon all of those reasons, we would re-urge the Motion to Suppress
the defendant's statement, and ask that, it not he placed before the jury-"
Hie trial court tilled:

The Court, for reasons previously articulated, will deny the Motion to
Suppress, both as originally presented and also as re-niged. The Court
addressed each of those concerns during its prior rulings and will not re­
address those concerns. I'll simply note for the record those have been
previously considered, addressed, the Motion to Suppress is still denied.

Contrary to the Court's representation, a review of the record from the 2011 suppression hearing will
demonstrate clearly that the Court did not ever consider nor rule upon the issue of Mr. Watson's
invocation of his right to remain silent. Rather, that issue was raised for the first time after trial had
already begun.
Hie defense attorneys perform deficiently by waiting until Mr. Watson's trial had already begun
- i.e., after vtor dire and just before opening statements - to raise the invocation issue. See La. C.Cr.P.
art 703 (A motion to suppress “must be filed in accordance with Article 521..."); See La. C.Cr. P. art.
512 (“Pretrial motion shall be made or filed within fifteen days after amdgpmenf”). Hie First Circuit
articulated defense counsel's deficiencies on direct, appeal;
“We recognize that while the issue of defendant's invocation of his right, to
remain silent was not, as a matter of form, raised for die first time on
appeal, defense counsel's re-urging of the motion to suppress on a new
trial basis (regarding an issue theretofore never raised, discussed, or
argued over two after the ruling on the motion to suppress, and on the first
day of trial, minutes before opening statements) web dilatory and, as such,
improper. A defendant must, assert all grounds for suppressing the
evidence of which either defendant or defense counsel were aware.
MmtejOy 2006-1807 at 43, 974 So 2d 1238. See La Code Crint. P. art.
703 (E)(1).
While the burden of proof was on the State on the trial of the motion to
suppress to prove the admissibility of the confession, the defendant was
required to raise all grounds for suppression of the evidence that were
11

knowable or available at that time. The defendant hears this burden in
order to give die State adequate notice so that it may present evidence and
adress die issue at trial on that motion. Montejo, 2006-1807 at 24, 974 So
2d 1238. Because the defendant did not raise the issue of invocation of the
right to silence in the written motion to suppress or at the motion to
suppress hearing, the State had no need to put on evidence to show that
defendant never made a clear assertion of his right to remain silent.
State v. Watson, 14-0350 (La App. Is* Cir. 9/19/14), 2014 WL 4668773. l
By placing the argument on the record after the trial had ahneadjy begun, the attorneys
made it clear that they intended to move to have Mr. Watson's statement suppressed on grounds
of his invocation of his right to remain silent. Hie defense attorney who re-urged the motion
was not on the case at the time the first suppression hearing was held. Nonetheless, the lawyers
that were representing Mr. Watson at. the time of the first suppression hearing failed to even
mention the issue of his invocation of his rights at the first suppression hearing and then not. one
of them addressed that issue until after the time for filing motions had already lapsed This
amounts to deficient performance by Mr. Watson's attorneys.
Counsel's deficient performance was not part of any trial strategy. The Strickland
standard carves out an exception to the ineffective analysts, to wit: State v. ex rel. Darren
Sterling, 15-1895 (La. 12/16/16), -So 3d

2016 WL 7362604 CJTJf an alleged error falls

'within the ambit of trial strategy' it doesn't 'establish ineffective assistance of counsel.* Mr.
Watson's attorneys failed to raise a viable suppression issue until the morning of trial, which far
exceeded the 13-day-after-arraigiment time delay provided for such filings. Counsel(s)'s
decision could not be explained as tactical since it foreclosed upon Mr. Watson's right to
challenge the admissibility of his statement (at both the trial and appellate courts) on the basis
of his invocation of his right to remain silent. As sudh, defense counsels deficient performance
may not be excused as a tactical decision. The first Strickland factors are satisfied
L The First Circuit's decision on direct appeal was not published in Southern Reporter: It is attached to this memorandum
as exhibit “A”.
12

Mr. Watson was prejudiced by counsel's deficient performance in failing to timely argue
in a. “written motion., filed within 15 days of arraignment** the issue of Mr. Watson's invocation
of his right to remain silent. Although Mr. Watson's attorney noted an objection to the trial
court's ruling on Watson's re-urged motion to suppress, that objection did not - and, as a matter
of law, could not - preserve the issue for review on direct appeal, La C.CrJP. art. 703(F), since
the issue of Mr. Watson's invocation of the right to silence was not raised, much less discussed.
by the trial court. As such, defense counsel's dilatory and deficient filing prevented Mr. Watson
from having the issue considered at all by the trial court To the extent the First Circuit not only
considered, but actually ruled upon the merits of the suppression issue concerning Mir. Watson's
invocation of his right to remain silent, the Court acted without authority and its ruling on that
issue should not be binding in this case.
Hie First Circuit's decision effectively circumvents Mir. Watson's right to a hearing on
his motion to suppress statements. Though it is true that. Mr. Watson's trial attorney shoulders
the brunt of the blame for Mr. Watson's deprivation, by exceeding the scope cf review on direct
appeal, the First Circuit both considered and denied Mr. Watson's motion suppress based upon
his invocation of his right to silence without first allowing Mr. Watson to develop a record at the
trial court level. Hie First Circuit proceeded to exercise its appellate jurisdiction and consider an
issue that was never heard and developed in the trial court. In so holding, the First Circuit
considered only the limited record before it on appeal, which did not include any hearing on the
ancillary suppression issue. Hie Court was confined to trial court record, which was viod of
evidence from the defense that, could have been introduced at a hearing to establish that Mr.
Watson did in fact invoke his right to silence.
In the context of this ineffective assistance of counsel claim, the invocation to silence
issue must be considered by this Court, since the standard applicable to these proceeding differs
13

from that applied by the First Circuit on direct appellate review. Trial counsel’s deficient
performance prejudiced Mr. Watson inasmuch as it barred Mr. Watson front raising the issue of
his invocation of his right to silence - that is, but for trial counsel's deficient performance, Mr.
Watson would have been able to develop a record and offer evidence at a suppression heating in
order to prove his otherwise bare allegation that he did in fact invoke his right to remain silent.
As such, Mr. Watson was prejudice by defense counsel's deficient performance. Hie second
Strickland factor is satisfied.
B. Petitioner was denied Ms fundamental right to testify on Ms own behalf at trial.
A defendant's right to testify on his own behalf is a necessary corollary of his Sixth
Amendment right to compulsory process because “the most important witness for the defense in
many criminal cases is the defendant himself.” State y. Hampton, 00-0052 (La. 3/2202), 818 So
2d 720, 729, citing Rock v. Arkansas, 483 U S. 44, 107 S.Q. 2704, 97 LEd. 2d 37 (1987). A
defendant's right to testify is among those rights that are essential to due process of law in afair
adversary process. Id., at 51,170 S.Q. 2704 (quoting Faretta y. California, 422 U.S. 806, 819
n.15,95 S.Q. 2525,45 LJEd. 2d 562 (1975)). Therefore, such language unmistakably places the
defendant's right to testify among those protections without, which a criminal trial is
“structurally flawed.”
“[D]eniaJ of the accused right to testify is not amenable to harmless error-analysis. Hie
right is either respected or denied; its deprivation cannot be harmless ” State v. Hampton, supra
at 729 citing State v. Dauzart, 99-3471 (La 10/30/00), 769 So. 2d 1206, 1210-11. It is of no
consequence that the right is denied by the trial court or the defendant's trial counsel. Id. Denial
of the right to testify is not amenable harmless-error. See Jd. Therefore, whenever a defendant is
prevented from testifying, after unequivocally expressing his desire to do so, the defendant has
been denied a fundamental right and suffers detrimental prejudice. Jd.
14

i

In the ease mb judl.ce, Mr. Watson continuously told his attorneys that, be wanted to
testify on his own behalf. After an intense discussion in the hallway of the courthouse:, Mr.
Watson's attorneys believed that they had convinced petitioner to forego his right to testify at
trial. Upon Mr. Watson's return back into Court, he initially com {died with his attorneys
demands and relayed onto the Court the decision of his trial attorneys. Mom aits later, after the
trial court had already accepted Mr. Watson's decision not to testify and as the trial court was
speaking on the record, Mr. Watson blurted out.: “Your Honor, I decided I will testify. I need
to. I need to testify.” Mr. Watson's choice of words were not. ambiguous or unclear. He told the
Court in no uncertain terms that he needed to testify. Rather than accepting that statement, as Mr.
Watson's decision on the issue, the trial court, allowed defense counsel to again step out. into the
hall with petitioner. His attorneys then called his mother out to speak with them and try to
convince Mr. Watson not to testify. Mr. Watson returned into the courtroom the second time and
stated that he would not testify. The decision ultimately made by petitioner mid accepted by the
Court was not petitioner's decision at all, but instead, was the decision of his attorneys that, was
forced upon him.
Mr. Watson's attorneys prevented him from exercising his constitutional right to testify
on his own behalf, albeit his unequivocal statement on the record that, he (not. only wanted to
but) needed to testify. Thus, Mr. Watson was denied a fundamental right and suffered
detrimental prejudice.
In reading the above argument and case authority, it is evident that the district court mis-applied
federal law and the ruling made by the district court was contrary to clearly established federal law.
Petitioner vigorously maintained that the denial of the right to a. Fair Trial as guaranteed by the Fifth
and Sixth Amendment to the United States is the denial of afederal right.

15

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

(jWvfX;
\

Date:.

,2020.

16

